                                   AUDIT




 BUREAU OF LAND MANAGEMENT’S
 MINERAL MATERIALS PROGRAM




Report No.: C-IN-BLM-0002-2012   March 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                               MAR 3 1 2014
Memorandum

To:            Tommy P. Beaudreau
               Acting Assistant Secret

From:          Mary L. Kendall
               Deputy Inspector Gene

Subject:       Final Audit Report- Bureau of Land Management's Mineral Materials Program
               Report No. C-IN-BLM-0002-2012

       This report presents the results of our audit of mineral material sales under the direction
ofthe U.S. Department ofthe Interior's (DOl) Bureau of Land Management (BLM). BLM's
mineral materials program generates millions of dollars in revenue from public lands each year.
Our objective was to determine if BLM obtained market value for those materials.

       We found that BLM has little assurance that it obtains market value for mineral materials.
We also found that management of the program is hindered by outdated regulations and policies,
does not always recover the processing costs for mineral materials contracts or verify production
volumes reported for sales. We are also concerned that BLM may not be collecting fees for
minerals used on lands that have been sold under the authority of the Southern Nevada Public
Land Management Act of 1998, as we found an instance where a private developer used tons of
mineral materials without paying for them.

        Our report contains 15 recommendations that should enhance BLM' s management of the
mineral materials program. We believe that ifDOI concurs with and implements our
recommendations, the program will become more effective. Based on BLM' s response to the
draft report, we modified our final report as appropriate. In its response, BLM concurred with all
but 1 of our 15 recommendations (see Appendix 5). We consider 14 recommendations resolved
but not implemented and will refer those recommendations to the Assistant Secretary for Policy,
Management and Budget for implementation tracking, and we consider 1 recommendation
unresolved (see Appendix 6).

        We request that BLM reconsider the unresolved recommendation and respond to us, in
writing, within 30 days. The response should provide information on actions taken or planned to
address the recommendation, as well as target dates and titles of officials responsible for
implementation.                                                                      ·




                               Office of Inspector General I W ashington, DC
               Please address your response to:

                      Ms. Kimberly Elmore
                      Assistant Inspector General for Audits, Inspections, and Evaluations
                      U.S. Department of the Interior
                      Office of Inspector General
                      Mail Stop 4428
                      1849 C Street, NW.
                      Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       If you have any questions regarding this report, please contact me at 202-208-5745.




                                                  2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
  Objective ............................................................................................................. 2
  Background ......................................................................................................... 2
Findings................................................................................................................... 4
  Limited Assurance That BLM Obtains Market Value for Mineral Materials..... 4
     Regulations Require Unnecessary Appraisals ................................................. 4
     BLM Guidance Is Outdated ............................................................................. 5
     Mineral Materials Valuations Are Not Credible ............................................. 6
     Revenue Is Lost When Contracts Are Not Timely Adjusted .......................... 7
  BLM Does Not Fully Recover Its Costs ............................................................. 9
     Recovering Costs for Exclusive Sales in Exclusive Sites ............................... 9
     Regulatory Omission Leads to Loss of Revenue From Exclusive Sales in
     Community Pits and Common-Use Areas....................................................... 9
  BLM Does Not Consistently Verify Production ............................................... 10
  Revenues May Be Lost Due to Unauthorized Use ............................................ 11
Conclusion and Recommendations ....................................................................... 14
  Conclusion......................................................................................................... 14
  Recommendations Summary............................................................................. 14
  OIG Analysis of General and Technical Comments ......................................... 18
     General Comments ........................................................................................ 18
     Technical Comments ..................................................................................... 18
Appendix 1: Scope and Methodology................................................................... 21
  Scope ................................................................................................................. 21
  Methodology ..................................................................................................... 21
  Prior Audit Coverage ........................................................................................ 21
Appendix 2: Organizations Visited or Contacted ................................................. 23
Appendix 3: Valuation Deficiencies ..................................................................... 24
  Wyoming ........................................................................................................... 24
  Arizona .............................................................................................................. 24
  New Mexico ...................................................................................................... 25
  Nevada ............................................................................................................... 26
Appendix 4: Schedule of Monetary Impact .......................................................... 27
Appendix 5: Bureau of Land Management Response .......................................... 28
Appendix 6: Status of Recommendations ............................................................. 41
Results in Brief
The Bureau of Land Management (BLM) manages the sale of mineral materials
on Federal lands and is responsible for ensuring that the U.S. Government obtains
“adequate compensation” for these sales. During our review of BLM’s mineral
materials program, we found that BLM has little assurance that it obtains market
value for mineral sales, recovers the processing cost for mineral contracts, verifies
sales production, and resolves issues of unauthorized mineral use. Specifically,
we found that—

   •   BLM regulations require appraisals for valuing mineral materials,
       although alternative methodologies may be more efficient;
   •   BLM guidance for mineral material sales is outdated;
   •   BLM’s regional market appraisals, used to determine market value of
       mineral materials commodities, have limited usefulness and enough
       deficiencies to conclude that the estimated values are not credible;
   •   BLM did not adjust contract prices, resulting in $846,117 of lost revenue
       to the Government;
   •   BLM does not recover processing costs for exclusive sales in certain
       areas;
   •   BLM rarely verifies production volumes, thus providing little assurance
       that contractors are only removing the mineral quantities for which they
       contracted; and
   •   BLM did not collect fees, informally estimated at more than $1 million,
       for mineral material removed from split-estate lands.

By updating its program guidance and collaborating with the Office of Valuation
Services, BLM has an opportunity to ensure that the mineral materials program
operates more efficiently and obtains adequate compensation for mineral
materials sold from Federal land.




                                                                                   1
Introduction
The Bureau of Land Management (BLM) sells mineral materials under the
authority of the Materials Act of 1947, as amended. 1 These mineral materials
consist of common types of sand and gravel, stone, pumice, or other materials
used mainly in construction and landscaping. The United States uses about
2 billion tons of mineral materials annually. In fiscal year 2011, BLM issued
about 2,800 contracts and permits to sell mineral materials, including 2,616 sales
valued at approximately $17 million, as well as instances of free use for public
purposes such as State and local roadway projects. We reviewed a significant
percentage of the mineral materials sales, visiting eight BLM offices in four
States. These eight offices had fiscal year 2011 sales valued at over $14 million—
comprising more than 80 percent of the mineral materials program’s total sales
that year (see Appendices 1 and 2).

Objective
We reviewed the U.S. Department of the Interior’s (DOI) management of mineral
materials sales to determine whether DOI obtained market value for those
materials.

Background
BLM may dispose of mineral materials on its lands as provided for by the
Materials Act of 1947 and related rules and regulations (43 C.F.R. pt. 3600).
Disposal is the common term for the removal of mineral materials by sale or free-
use permit. State and local governments, as well as other entities not organized for
profit, may be issued permits for free use as long as the materials are not used for
commercial or industrial purposes.

BLM sells mineral materials using competitive or noncompetitive contracts.
These contracts are classified as either exclusive to individual purchasers in a
defined operating area or nonexclusive to multiple users making concurrent
purchases in common-use areas and community pits. Common-use areas are
generally broad geographic areas of Federal land from which BLM can dispose of
mineral materials to many persons with only negligible surface disturbance.
Designated community pits also provide mineral materials for many persons, but
surface disturbance can be extensive.

Whether selling exclusively to an individual purchaser or nonexclusively to
multiple users, the Act currently requires payment of “adequate compensation.”
BLM’s regulations require it to sell mineral materials at not less than market
value as determined through appraisal. Bureauwide guidance for performing or
contracting for these appraisals, however, was last updated in the mid-1980s. The
appraisal profession has evolved considerably since then. Appraisers now use a

1
    30 U.S.C. §§ 601-03.


                                                                                  2
set of standards called the Uniform Standards of Professional Appraisal Practice
(USPAP). In addition, DOI requires its appraisers, whether staff or contractors, to
be State licensed.

DOI has established the Office of Valuation Services (OVS) to provide valuation
services and related policy oversight for DOI and its bureaus. Within OVS, the
Office of Mineral Evaluations (OME) offers mineral evaluation services either
through standalone commodity opinions or as part of real property appraisals.
Real property appraisers rarely have sufficient minerals expertise to adequately
evaluate minerals commodities. OME staff includes mineral economists,
geologists, and mining engineers. All of these skills are usually required to render
credible mineral opinions.

In addition to collecting revenue from mineral materials sales, BLM also collects
fees to recover its costs in certain circumstances. Cost-recovery fees can include
the costs of administrative review of permit applications, review of mining and
reclamation plans, National Environmental Policy Act (NEPA) reviews, and
appraisal services. Further, purchasers of mineral materials, and certain permit
holders, may also be responsible for reclamation of lands disturbed by their
operations.




                                                                                     3
Findings
We found that BLM has little assurance that it obtains market value for mineral
materials sales. We identified several areas of concern, including whether BLM
properly identifies market value and utilizes its authority to adjust prices for
existing contracts, recovers its costs for mineral materials contracts, verifies
production volumes, and resolves issues that may contribute to cases of mineral
trespass.

We identified the following issues that impact the mineral materials program:

   •   Regulatory language requires use of appraisals, even though other
       acceptable valuation methodologies exist.
   •   Bureauwide appraisal guidance is more than 25 years old.
   •   BLM use of OVS staff, who have expertise specific to valuing mineral
       materials, is limited.
   •   OVS found five of BLM’s existing mineral materials appraisals
       inadequate for valuation purposes and has disapproved them for use.
   •   BLM did not adjust prices for existing contracts, despite regulatory
       authority and guidance to do so periodically.
   •   BLM has made limited efforts to recover exclusive-sale processing costs
       where the authority exists. Further, a regulatory omission prevents BLM
       from fully recovering costs related to exclusive sales in community pits
       and common-use areas.
   •   BLM provided little evidence that it performs production verification
       activities to ensure contractors pay for actual volumes of mineral materials
       removed.
   •   BLM did not collect fees, informally estimated at more than $1 million,
       for mineral materials removed from split-estate lands.

Due to insufficient data, we could not determine the overall impact to the
Government, but we found that unadjusted contract prices alone resulted in the
loss of more than $846,000 in potential revenues.

Limited Assurance That BLM Obtains Market Value
for Mineral Materials
Regulations Require Unnecessary Appraisals
The Materials Act of 1947, as amended (30 U.S.C. §§ 601-03), authorizes the
disposal of mineral materials while requiring the payment of “adequate
compensation.” BLM regulations (43 C.F.R. § 3602.13), however, state that
“BLM will not sell mineral materials at less than fair market value” and further
stipulate that “BLM determines fair market value by appraisal.” Taken together,
the regulations and professional standards for appraisal place a significant burden
on BLM.



                                                                                   4
An appraisal requires the application of complex and strict standards that have
been developed for determining the value of real property, personal property, and
business interests. As standalone commodities, minerals such as sand and gravel
do not fit well in these categories. The current BLM regulations require that an
appraisal be performed to obtain fair market value, but the underlying statute does
not. OVS and BLM officials agreed that less-complex valuation methodologies
can and should be used to determine the value for standalone commodities and
agreed to seek rule change for a more efficient means.

    Recommendation

    We recommend that BLM:

        1. Modify 43 C.F.R. § 3602.13 to allow for the use of all appropriate
           valuation methodologies.


BLM Guidance Is Outdated
BLM’s Mineral Material Appraisal Manual 2 and Mineral Material Appraisal
Handbook 3 are more than 25 years old. BLM has periodically updated other
guidance, but neither of these key reference documents has been updated since the
mid-1980s. Since these documents were written, DOI has consolidated appraisal
operations and implemented new requirements and standards. Both documents
predate Secretarial Order No. 3300, which identified OVS as the authority for
valuation services and related policies and procurement. The Order’s provisions
were included in the Departmental Manual at 112 DM 33, which identifies OVS
as “responsible for providing minerals evaluations for the Department’s bureaus
and offices . . . [and] providing analytical and evaluative support.” Yet these
changes, among many others, do not appear in BLM guidance. Consequently,
those in BLM who are tasked with determining mineral values have utilized
inadequate information and methods.

We found that BLM staff generally performed, or relied on, a variety of
inadequate price analyses, ranging from outdated price lists to very limited
analyses of local market conditions. For example, staff in one office relied on a
2005 price list even though they could not find the appraisal upon which the
prices were based, stating that they had a “general sense” that the prices were still
valid. In another office, a staff geologist said that he had used mineral materials
values from a 2009 Statewide price study as the starting point for determining
prices to charge for new contracts. He stated that he then applied unspecified
“extraneous factors” to adjust the prices in the study.




2
    Mineral Material Appraisal Manual 3630.
3
    H-3630-1 Mineral Material Appraisal Handbook.


                                                                                    5
 Recommendation

 We recommend that BLM:

    2. Work with OVS to update the Bureau’s Mineral Material Appraisal
       Manual 3630 and H-3630 - 1 Mineral Material Appraisal Handbook.


Mineral Materials Valuations Are Not Credible
We reviewed the regional area mineral materials appraisals performed in the four
States in which we conducted site visits (see Appendix 3). Based on the
deficiencies identified, we concluded that the quality of work performed did not
support the valuations arrived at by each appraiser. As these appraisals are the
foundation for the prices used in sales contracts, we requested that OVS perform
an independent review of the appraisals based on the standards outlined in each
document. In each report, the OVS reviewer—a licensed appraiser—identified
enough deficiencies to render the estimated commodity values of the minerals not
credible. Based on the results of his reviews, the OVS appraiser recommended
that each report should be “disapproved for use” by BLM.

Deficiencies that contributed to the inadequate appraisals included—

   •   contracts for appraisal that had poorly worded statements of work and
       required that the work follow inappropriate professional standards;
   •   inadequate content, detail, or analysis, which is required to comply with
       professional appraisal standards;
   •   discussion of elements of comparison for evaluating types of materials,
       such as quantity, quality, and mining and processing, but no support to
       confirm if, or how, this methodology was applied to the data provided;
   •   no evidence that field examinations were performed to determine the
       quality and quantity of the commodity deposits; and
   •   no consideration given to account for important, site-specific market value
       considerations, including specific commodity differences like the grade of
       materials or the transportation costs for delivering commodities to market.

The appraisal skillset and appraisal contracting function no longer reside within
BLM, but with OVS, which has been designated by DOI to provide or contract for
appraisal services. BLM’s use of OVS services has been limited, while BLM staff
has acknowledged that they do not have the skills or training necessary to
adequately develop market values.

In light of these findings, BLM acknowledged that the procedures and standards
used to perform the appraisals did not conform to applicable guidance. We offer a
series of recommendations to engage OVS and BLM in improving valuation
practices for the mineral materials program. Extensive support from OVS might
require implementation of a reimbursable services agreement to ensure OVS is


                                                                                 6
able to maintain sufficient staff, or for contracts awarded in cooperation with
BLM.

 Recommendations

 We recommend that BLM:

    3. Issue guidance to State offices to coordinate with OVS for contracting
       of mineral materials valuations;

    4. Work with OVS to develop statements of work for preparing mineral
       materials valuations;

    5. Develop a process for OVS to review mineral materials valuations
       performed by or for BLM;

    6. Work with OVS to determine the market values of the mineral
       materials covered by the appraisal reports that have been “disapproved
       for use”; and

    7. Develop a mechanism through which BLM will reimburse OVS for
       mineral materials valuation services as needed.


Revenue Is Lost When Contracts Are Not Timely Adjusted
To ensure that the Government receives fair market value for mineral materials,
Federal regulations provide BLM with the authority to periodically adjust the
value of mineral materials that have not yet been removed. Despite BLM-issued
guidance to adjust prices for existing contracts, we identified 16 contracts in
which adjustments were not made. Adjustments can be made through reappraisal
or by applying the Producer Price Index (PPI). When applying a PPI, we
estimated that BLM lost more than $846,000 in mineral revenues (see Appendix
4).

Regulations at 43 C.F.R. § 3602.13(b) stipulate that BLM may not adjust a
contract price during the first 2 years of a contract. BLM policy provides that an
adjustment may occur by reappraisal at 2-year intervals thereafter, and the
effective life of the initial appraisal may be extended by applying an appropriate
PPI. BLM issued an internal memorandum in 2009 that emphasized using a PPI to
modify fees. (We note that this guidance has since expired, but the regulatory
authority remains in effect.)

We identified 21 (out of 38) multiyear contracts that should have been evaluated
using a PPI. Using contractor production documents, we identified the tonnage of
minerals produced each year and adjusted the initial contract price by applying the
PPI for that period. We then compared revenue received to what could have been


                                                                                  7
received. In all, we estimated a total monetary loss to the Government of
$846,117 for the 16 contracts that were not adjusted (see Figure 1).

    State Office              Contract            Estimated Loss of Revenue
                                 1                                      $1,889
                                 2                                      26,620
     New Mexico                  3                                       1,904
                                 4                                       3,910
                                 5                                      18,497
                                 6                                      21,677
                                 7                                      18,931
                                 8                                       5,701
        Arizona                  9                                      51,542
                                10                                     146,132
                                11                                       8,688
                                12                                     421,626
       Wyoming                  13                                         400
                                14                                      65,970
        Nevada                  15                                      17,760
                                16                                      34,870
         Total                                                       $846,117

Figure 1. Estimated loss of revenue to the Federal Government.

BLM staff stated that on occasion, the cost of an appraisal could exceed the
benefit of the mineral material sale to small business owners. BLM policy offers
State offices guidance to develop an annual ranking of contracts that need to be
appraised or reappraised to help prioritize funding for appraisals. None of the four
State offices we reviewed, however, had developed a priority list at the time of
our site visits.

 Recommendations

 We recommend that BLM:

     8. Ensure that field offices adjust prices in existing mineral materials
        contracts as authorized by Federal regulations and required by BLM
        policy; and

     9. Identify and prioritize contracts that need to be valued and revalued.




                                                                                   8
BLM Does Not Fully Recover Its Costs
Cost-recovery authority allows BLM to recoup costs related to exclusive mineral
sales and subsequent contract renewals. Exclusive-sale contracts or permits may
occur on exclusive sites where only one operator has rights to remove materials.
Exclusive-sale contracts may also be issued to an operator for removal of
materials from a dedicated zone within a broader area otherwise designated as a
community pit or a common-use area in which many persons also have that right.

Recovering Costs for Exclusive Sales in Exclusive Sites
Federal regulations at 43 C.F.R. § 3602.11(c) allow BLM to recover processing
costs related to exclusive sales of mineral materials from exclusive sites at the
time of the original contract and during contract renewal. We found that despite
the authority to recover costs, none of the 30 exclusive-sales contracts we
reviewed had cost recovery associated. Further, only two of the eight competitive
contracts reviewed had some form of cost recovery. We could not develop an
estimate of the total costs unrecovered due to incomplete data.

The authority to recover costs not only includes the costs to obtain an appraisal
but also staff labor costs incurred when assessing market conditions and
establishing and renewing contracts. In fiscal year 2006, BLM issued guidance to
all field office officials detailing how this could be accomplished. The
memorandum explained tools, such as estimation worksheets, that staff could use
to track labor associated with each processing step. This guidance has since
expired. Evidence suggests that cost-recovery efforts are lax and unnecessary
costs are borne by the Government.

 Recommendation

 We recommend that BLM:

    10. Reissue guidance explaining which costs are recoverable for exclusive-
        sale contracts and ensure that field offices seek reimbursement for costs
        incurred.


Regulatory Omission Leads to Loss of Revenue From Exclusive Sales
in Community Pits and Common-Use Areas
BLM can issue an exclusive contract for a dedicated zone within a community
pit or common-use area. The contractor is granted the sole right to remove
minerals within that designated zone. A regulation published in 2005 at
43 C.F.R § 3602.11 was intended to provide BLM with the cost-recovery
authority to collect upfront processing fees for these sales. An editorial change in
the final rule, however, altered the wording and legal effect of the regulation (see
Figure 2). The impact of this change was significant, as BLM cannot collect
processing fees for those applications without first canceling the common-use
area or community pit designation for the proposal area—a process described by a


                                                                                  9
BLM official as cumbersome and costly. As a result, rather than an applicant
paying the processing costs, the Government bears the burden.

                                 43 C.F.R § 3602.11

                    How do I request a sale of mineral materials?

          Current Language                             Intended Language

      (c) You must pay a processing                (c) You must pay a processing fee
      fee as provided in § 3602.31(a)                as provided in § 3602.31(a) and
     and § 3602.44(f). If the request is              § 3602.44(f). If the request is
       for mineral materials that are               for nonexclusive sales of mineral
          from a community pit or                       materials that are from a
            common use area this                     community pit or common use
        requirement does not apply.                  area this requirement does not
                                                                  apply.


Figure 2. Language used in the current regulations compared to the intended language.

In such cases where the Government bears the burden, the contractor is subject
only to the same fees as other users regardless of new costs that BLM incurs. In
contrast, on exclusive sales outside of community pits and common-use areas, the
purchaser is independently responsible for all processing costs. BLM provides the
interested party an initial estimate of costs for administrative review of the
application, review of mining and reclamation plans, applicable National
Environmental Policy Act reviews, and appraisal services. According to program
officials, this arrangement was intended to carry over to exclusive sales within
community pits and common-use areas, but the current regulatory language does
not support this, and the Government pays these upfront costs.

 Recommendation

 We recommend that BLM:

     11. Work with the Office of the Solicitor to revise 43 C.F.R. § 3602.11 to
         collect cost-recovery fees on existing exclusive-sale contracts in
         community pits and common-use areas.


BLM Does Not Consistently Verify Production
BLM does not consistently verify the volume of mineral materials removed by
authorized contractors. BLM policy requires geologists to confirm mineral
production by inspecting sites and verifying reported volumes. We identified 33


                                                                                        10
of 38 contract files that did not have any production verification documentation.
Discussions with geologists concerning this matter revealed that many times
verification is limited to relying on the individual contractors to submit accurate
production reports when they submit their mineral fees.

The frequency of these inspections is based on the size of the contract, with a
minimum of one visit per year for small contracts (5,000 cubic yards) or at least
two visits per year for large contracts (15,000 cubic yards or greater).
Measurement techniques can include navigating the mine site perimeter with GPS
equipment, or installing closed-circuit monitoring. This information can then be
used to reconcile with operator data, such as weigh-scale tickets or production
reports. While geologists did perform the mandatory site visits, there was little
evidence that production was verified.

At a large scoria 4 mine we visited, BLM production verification was limited to
checking the math of the contractor’s monthly production statement that was
submitted with the fee check. In contrast, the contractor had implemented an
internal control system using weigh-scale tickets and daily logs to cross-check
sales that could be used to verify the accuracy of the reported production.

Production verification ensures accountability by independently monitoring and
verifying reported production and payments. Without this verification, BLM
cannot ensure that contractors are removing only the quantities of mineral
materials contracted for and that the Government is receiving proper
compensation.

    Recommendation

    We recommend that BLM:

        12. Reissue policy and guidance on production verification to provide
            accurate accounting of materials removed, and implement procedures to
            provide reasonable assurance that field offices comply.


Revenues May Be Lost Due to Unauthorized Use
BLM did not collect fees for mineral materials used on land that it sold to a
private developer under the authority of the Southern Nevada Public Land
Management Act of 1998 (SNPLMA), Pub. L. No. 105-263, 112 Stat. 2343.

BLM staff informally estimated the value of fees not paid for these materials
exceeded $1 million. We are concerned that this issue could exist on other
properties disposed of through SNPLMA.


4
    Scoria is a dark-colored volcanic rock typically used in landscaping and drainage works.


                                                                                               11
SNPLMA authorized BLM to sell and exchange Federal lands in Clark County,
NV. These disposals created a split-ownership estate, which provided the
landowner surface rights for land use and reserved to the Federal Government
the rights to subsurface minerals. BLM regulations for landowner use of
Federal subsurface mineral materials on split-estate lands are contained in
43 C.F.R. § 3601.71. The regulations specify that absent a mineral materials sale,
surface owners may use a “minimal amount” of mineral materials for “personal
use.” Any use beyond this level is considered unauthorized. Subsequent
discussions between BLM officials identified that confusion existed concerning
the interpretation of what constitutes a “minimal amount” and whether use of
minerals for construction and landscaping of residential properties could be
considered “personal use.”

This confusion resulted in BLM’s Las Vegas Field Office officials approaching
the BLM State Office with a request for specific guidance regarding a land
disposal under SNPLMA that was developed into a 4,500-acre master-planned
community in Henderson, NV. The developer planned to build approximately
15,000 homes on this land. Officials from BLM’s Las Vegas Field Office were
certain that mineral materials were being processed and used on the site during
construction in the early 2000s. An official from the State Office wanted to issue
a trespass notice; we could not determine why the notice was never initiated. We
do not believe the volume of material alleged to have been used in this instance
would be considered a “minimal amount.” Further, from 1999 through 2011,
BLM has sold or exchanged about 40,000 acres of land under SNPLMA, so
situations similar to this instance in Henderson could continue to surface and
more resources could be lost to unauthorized use due to this lack of clarity
concerning definitions.

We issued a Notice of Potential Findings and Recommendations in September
2012 to BLM about unauthorized use and trespass. BLM concurred in part with
our recommendations.

 Recommendations

 We recommend that BLM:

    13. Issue guidance to clarify regulations in 43 C.F.R. § 3601.71 to define
        “personal use” versus commercial use, in terms of the property on
        which those uses are restricted and what specific uses constitute
        allowable personal use in contrast with restricted commercial use;

    14. Issue guidance to its State offices to identify and take action to collect
        the fair market value of the unauthorized removal of mineral materials
        on split-estate land disposals; and




                                                                                     12
Recommendations

  15. Consult with the Office of the Solicitor to determine whether action
      should be taken to collect the fair market value of the unauthorized
      removal of mineral materials on past land disposals.




                                                                             13
Conclusion and Recommendations
Conclusion
BLM’s mineral materials program generates approximately $17 million in
revenue from public lands each year. Management of the program, however, is
challenged by outdated regulations and policies that hinder BLM’s ability to
obtain adequate compensation for its mineral materials sales. Most of the issues
can be resolved with regulatory and policy updates. We identified the need for
BLM to collaborate with OVS to assist in developing the valuations needed to
ensure that it sells its mineral materials at fair market value. In addition, BLM has
an opportunity to increase revenue through periodic contract adjustments, by
recovering processing costs, and collecting the fees due to the Federal
Government. BLM can significantly enhance its management of the mineral
materials program by implementing our recommendations.

BLM generally agreed with our findings, concurring with all but one of our
recommendations (see Appendix 5). We consider 14 recommendations resolved
but not implemented and 1 recommendation unresolved (see Appendix 6).

Recommendations Summary
We recommend that BLM:

   1. Modify 43 C.F.R. § 3602.13 to allow for the use of all appropriate
      valuation methodologies.

       BLM Response: BLM will review alternative valuation methodologies
       and initiate the regulatory process if found appropriate.

       Office of Inspector General (OIG) Reply: We consider this
       recommendation resolved but not implemented. We note that our
       recommendation is targeted to BLM as the proponent of the regulation
       cited and suggest—consistent with other recommendations in this report—
       that BLM consult with OVS as it reviews alternative valuation
       methodologies. We will refer the recommendation to the Assistant
       Secretary for Policy, Management and Budget for implementation
       tracking.

   2. Work with OVS to update the Bureau’s Mineral Material Appraisal
      Manual 3630 and H-3630 - 1 Mineral Material Appraisal Handbook.

       BLM Response: BLM will consult with OVS as it updates the Mineral
       Appraisal Manual and Handbook.

       OIG Reply: We consider this recommendation resolved but not



                                                                                   14
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

3. Issue guidance to State offices to coordinate with OVS for contracting of
   mineral materials valuations.

   BLM Response: BLM will coordinate with OVS to identify a revised
   contracting process for mineral materials valuations.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

4. Work with OVS to develop statements of work for preparing mineral
   materials valuations.

   BLM Response: BLM will work with OVS to develop standardized
   statements of work for contracts for performing mineral materials
   valuations.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

5. Develop a process for OVS to review mineral materials valuations
   performed by or for BLM.

   BLM Response: BLM will work with OVS to develop a process that
   includes the appropriate OVS reviews for the various types of mineral
   material valuations.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

6. Work with OVS to determine the market values of the mineral materials
   covered by the appraisal reports that have been “disapproved for use.”

   BLM Response: BLM will consult with OVS to determine a process for
   its assistance in determining the market values in this situation.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.




                                                                            15
7. Develop a mechanism through which BLM will reimburse OVS for
   mineral materials valuation services, as needed.

   BLM Response: BLM will work with OVS to determine how to
   reimburse OVS for work on these services.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

8. Ensure that field offices adjust prices in existing mineral materials
   contracts as authorized by Federal regulations and required by BLM
   policy.

   BLM Response: BLM will issue additional guidance reiterating the
   mineral materials price adjustment guidance for existing contracts. In
   addition, BLM will complete periodic reviews on this issue to monitor for
   compliance.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget.

9. Identify and prioritize contracts that need to be valued and revalued.

   BLM Response: BLM will review existing policy and will clarify and
   update the policy as necessary.

   OIG Reply: We consider this recommendation unresolved. In its
   response, BLM did not explain the objective of its policy review. We infer
   that such a review might consider approaches other than “annual rankings”
   (as referred to in current BLM policy and our draft report) to meet the
   intent of identifying and prioritizing contracts for revaluation. We have
   modified the wording of the recommendation made in our draft report and
   will consult with BLM to resolve this recommendation before referring it
   to the Assistant Secretary for Policy, Management and Budget for
   implementation tracking.

10. Reissue guidance explaining which costs are recoverable for
    exclusive-sale contracts and ensure that field offices seek reimbursement
    for costs incurred.

   BLM Response: The BLM has recently identified some possible
   improvements to the current approaches for recovering costs and will
   revise its guidance for determining which costs are recoverable and how to
   collect the costs.



                                                                            16
   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

11. Work with the Office of the Solicitor to revise 43 C.F.R. § 3602.11 to
    collect cost-recovery fees on existing exclusive-sale contracts in
    community pits and common-use areas.

   BLM Response: BLM will work with the Office of the Solicitor to
   determine if a regulatory revision is necessary or if other administrative
   options are available to meet this need.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

12. Reissue policy and guidance on production verification to provide
    accurate accounting of materials removed, and implement procedures to
    provide reasonable assurance that field offices comply.

   BLM Response: BLM will issue new guidance for production
   verification. In addition, BLM will periodically monitor field offices for
   compliance with guidance on production verification.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

13. Issue guidance to clarify regulations in 43 C.F.R. § 3601.71 to define
    “personal use” versus commercial use, in terms of the property on which
    those uses are restricted and what specific uses constitute allowable
    personal use in contrast with restricted commercial use.

   BLM Response: BLM will issue supplemental guidance to define
   personal use of mineral materials under 43 C.F.R. § 3601.71.

   OIG Reply: We consider this recommendation resolved but not
   implemented. We will refer the recommendation to the Assistant Secretary
   for Policy, Management and Budget for implementation tracking.

14. Issue guidance to its State offices to identify and take action to collect the
    fair market value of the unauthorized removal of mineral materials on
    split-estate land disposals.

   BLM Response: BLM will issue supplemental guidance reiterating the
   requirement to follow existing procedures for recovery of damages for



                                                                                17
       unauthorized removal of mineral materials from split-estate lands.

       OIG Reply: We consider this recommendation resolved but not
       implemented. We will refer the recommendation to the Assistant Secretary
       for Policy, Management and Budget for implementation tracking.

   15. Consult with the Office of the Solicitor to determine whether action
       should be taken to collect the fair market value of the unauthorized
       removal of mineral materials on past land disposals.

       BLM Response: BLM will consult with the Office of the Solicitor
       regarding whether actions can be taken to address similar land disposals.

       OIG Reply: We consider this recommendation resolved but not
       implemented. We will refer the recommendation to the Assistant Secretary
       for Policy, Management and Budget for implementation tracking.

OIG Analysis of General and Technical Comments
General Comments
BLM’s response to the draft report includes general comments that explain the
breadth of activities that BLM undertakes for the Mineral Materials Program. We
did not incorporate the additional information in the body of the final report
because it is beyond of the scope of our audit. The information BLM provided can
be read in its entirety within the BLM response (see Appendix 5.)

The general comments acknowledge that legal changes and advancements in
professional context have led to a condition that “warrant[s] revisions to the
terminology and guidance for the valuations of mineral materials commodities.”
BLM states that it will consult with OVS and the Office of the Solicitor to address
this condition.

BLM also indicated that it “cannot retroactively identify documentation that
would support an enforcement action” in response to a specific instance of
potential unauthorized use. We acknowledge the difficulty and encourage BLM to
examine its position that this “was an isolated incident.” We are also pleased to
learn that the BLM Las Vegas Field Office has recently identified two potential
unauthorized mineral materials removals from SNPLMA tracts and initiated
enforcement actions.

Technical Comments
BLM provided technical comments keyed to the pages of our draft report.

Page 2: last paragraph
BLM stated that this paragraph in the draft report intermixed time periods and
suggested that the word “currently” be inserted to bring context to the present
requirements of the Materials Act of 1947.


                                                                                  18
OIG Analysis: As suggested, we added the word “currently” into the final report.

Page 3: last two paragraphs
BLM indicated that the draft report did “not accurately capture the distinction
between cost-recovery fees and reclamation fees.”

OIG Analysis: We simplified the presentation of background information.
BLM’s suggested language is included in Appendix 6.

Page 5
While noting that requirements differ, BLM acknowledged that similarities in
terminology for real property appraisals and for valuation of mineral material
commodities “are causing confusion for BLM personnel and contractors.” BLM
stated that it needs a guidance update to clearly distinguish the two systems.

OIG Analysis: BLM’s technical comments support the underlying issues that we
identified. We intended recommendations 1 and 2, in particular, to assist in
resolving the confusion.

Page 5: first full paragraph
BLM recommended that OIG include a discussion of other methodologies that
would be acceptable for valuating mineral commodities.

OIG Analysis: During our exit conference with OVS and BLM, program officials
agreed that less-complex valuation methodologies can and should be used to
determine the value for mineral commodities. Specifying valuation methodologies
would be beyond the scope and intent of our audit work. Our intent is to
encourage BLM to improve the current condition, including circumstances in
which (1) the cost of a formal appraisal exceeds the benefit, (2) BLM has not
applied the valuation expertise in OVS, and (3) BLM has not exercised the
valuation responsibility that lies with OVS.

Page 5: first two sentences of the second full paragraph
BLM reiterated the report’s statement that the BLM’s Mineral Material Appraisal
Manual and Handbook had not been updated since the mid-1980s and provided a
listing of years when regulations and associated guidance were issued. BLM
requested that we include this information in the report.

Page 6
BLM requested that, in our discussion of “regional area” valuation reports, we
note BLM’s position that “the procedures and standards used to perform the
appraisals were not in compliance with BLM guidance.”

OIG Analysis: We modified our report language to incorporate BLM’s request.
Nonconformance exists with respect to both DOI and BLM guidance, and we are
encouraged by BLM’s commitment to improve not only the policies that govern



                                                                                  19
the program, but also the implementation of these policies by its State and field
offices.

OIG Analysis: We modified the report slightly to acknowledge that guidance
other than the Manual and Handbook has been updated periodically.

Page 9: first and second paragraphs
BLM felt that OIG had misinterpreted the current cost-recovery regulations and
included an inaccurate description of the cost-recovery finding.

OIG Analysis: We agree that using the word “administering” was incorrect, and
we adjusted the report accordingly. The larger issue, however, seems to apply to
the question of cost recovery in community pits. We worked closely with BLM
and contacted the Office of the Solicitor when developing our understanding of
the applicable cost-recovery regulations and guidance. We agree with BLM that
current “regulations . . . do not allow for cost recovery for any disposals located
within community pits.” Our finding, however, focuses on exclusive sales,
including those circumstances in which BLM staff complete the cumbersome
process of modifying the legal description of the community pit’s boundaries in
order to set aside what we informally term a “designated zone.” We have
modified our wording to indicate that such a zone could be created within a
broader area that is managed as a community pit. We are encouraged that BLM
has identified possible improvements to its cost-recovery practices.

Page 12
BLM indicated that it could not substantiate the amount of mineral materials used
in a reported instance of potential unauthorized use and suggested that we modify
our finding to point out that BLM staff did not investigate the incident at the time
because they misunderstood the new legal circumstances soon after the enactment
of SNPLMA.

OIG Analysis: We modified our language to refrain from identifying a specific
volume of material and to characterize the monetary estimate, which we
developed with information from BLM field staff, as “informal.” We appreciate
BLM’s insight as to causes, but our audit report is focused on the revenue effect,
specifically that fees were not collected. The informal estimate provides some
context as to the scale of the matter, but we note that this amount is not included
in our tally of monetary impact (see Appendix 4).




                                                                                    20
Appendix 1: Scope and Methodology
Scope
We reviewed the Bureau of Land Management’s (BLM) mineral materials
program to determine if BLM obtained market value for mineral materials
removed from Federal land. The mineral materials program staff issue and
administer contracts for the sale of minerals used for the construction of roads,
foundations, and buildings, as well as commercial and residential landscaping. In
fiscal year 2011, BLM issued about 2,800 mineral materials contracts and
permits, which included 2,616 sales valuing approximately $17 million.

The Materials Act of 1947 does not include minerals produced or mined under
leases for energy and nonenergy development or hard rock minerals subject to
location and claim, such as gold and silver under the Mining Law of 1872.
Therefore, our audit did not include a review of contracts or leases related to these
types of minerals.

Methodology
To accomplish our objective, we performed fieldwork from February 2012
through January 2013. We interviewed program officials at BLM headquarters, at
BLM State and field offices, and at the Office of Valuation Services (OVS). We
visited eight BLM offices where we reviewed individual mineral contracts and
also visited contractor-operated mineral mining pits. In fiscal year 2011, these
offices were responsible for more than $14 million of the $17 million in total
program sales. After reviewing regional appraisals and concluding that the quality
of work performed did not support the valuations, we requested that OVS perform
an independent review of the regional appraisals to confirm our concerns.

We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. These standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our objective.

Since the primary focus of our audit was to determine if BLM obtained market
value of mineral materials removed from Federal land, we did not rely on or
obtain computer-generated data. We did, however, rely on data provided by BLM
for mineral materials contracts, permits, and program sales.

Prior Audit Coverage
In fiscal year 2010, we initiated a series of revenue enhancement audits to
determine if the Bureau of Land Management (BLM) obtained market value for
land use of and products sold on Federal land. The first two published reports,
“Management of Rights-of-Way (ROW) in the U.S. Department of the Interior,”


                                                                                  21
and “Bureau of Land Management’s Helium Program,” found that BLM’s rents
do not reflect market value. Both reports included recommendations that BLM
work with the Office of Valuation Services (OVS) to establish criteria for
ensuring that BLM receives market value for services and products acquired on
Federal land.

In December 2009, we issued “Evaluation Report on the Department of the
Interior’s Appraisal Operations.” We conducted this evaluation because of
concerns regarding the efficiency and quality of departmental appraisal
operations. We found that BLM repeatedly attempted to regain control of
appraisal function from the Appraisal Services Directorate (ASD), and we
recommended that complete control over contracting for appraisals be given to
ASD. In May 2010, Secretarial Order No. 3300 reorganized ASD into OVS and
assigned it sole authority for contracting services.




                                                                                22
Appendix 2: Organizations Visited or
Contacted
           U.S. Department of the Interior
            Office of Valuation Services
                   Lakewood, CO

            Bureau of Land Management
                Washington Office
                 Washington, DC

               Las Vegas Field Office
                   Las Vegas, NV

             Carson City District Office
                 Carson City, NV

             New Mexico State Office
                 Santa Fe, NM

            Albuquerque District Office
                Albuquerque, NM

               Carlsbad Field Office
                  Carlsbad, NM

              Rio Puerco Field Office
                 Rio Puerco, NM

                Casper Field Office
                   Casper, WY

              Phoenix District Office
                  Phoenix, AZ




                                             23
Appendix 3: Valuation Deficiencies
Wyoming
In 2009, the Bureau of Land Management (BLM) paid $94,300 for a mineral
materials appraisal conducted by a State-licensed appraiser. The appraiser
completed the work after his temporary Wyoming license expired, which violated
State rules and regulations. The appraiser stated that he valued mineral materials
in conformity with the Uniform Appraisal Standards for Federal Land Acquisition
(UASFLA) and the Uniform Standards of Professional Appraisal Practice
(USPAP) to arrive at fair market value. UASFLA requires the appraiser to
perform additional processes, requirements, and analysis, in addition to following
USPAP, when performing appraisals for Federal land acquisition, but the
appraiser did not include the necessary content, detail, or analysis required to
comply. Moreover, UASFLA was developed to standardize the appraisal process
for the Federal Government to acquire land. Federal land acquisition is neither the
intent nor the purpose of the Wyoming Statewide Mineral Material Appraisal. On
that basis alone, any reference to UASFLA is inappropriate.

We found that of the 13 USPAP standards required for this appraisal, only 4 items
conformed. We found that the report did not provide sufficient information to
identify the real estate involved in the appraisal, such as the physical and
economic characteristics relevant to the assignment as required by USPAP
Standards Rule 2-2(b)(iii). Also, while two pricing zones were reported for sand
and gravel, only Statewide prices were reported for all other mineral materials in
the report. Although the appraiser mentions elements of comparison weighed by
market participants when evaluating sources for these types of materials, such as
quantity, quality, and mining and processing, his discussion merely explains the
reason why each element is considered, not if or how he made actual adjustments
to any of the data. The result is a report that does not accurately reflect market
value.

Arizona
In 2009, BLM paid $61,800 for a mineral materials price study to update a study
performed in 2003. The study provided to BLM excluded the specific comparable
vendor and price data used to conduct it. According to a BLM official, BLM
agreed to allow the contractor to destroy the raw data, such as the names of
vendors and royalty prices at specific locations, for specific commodities in each
zone used to conduct the study. The data that was not provided, however, is
critical for BLM staff to adopt market value information to specific local sites.

The commodity price data included in the report was provided in terms of price
range as opposed to market value or appraised value, which BLM requested in the
statement of work. In many cases, the commodity value range exceeded 200
percent, which made the exclusion of specific comparable data even more critical.
BLM staff told us they permitted the contractor to exclude the comparable data in


                                                                                24
order to get private industry to cooperate and voluntarily provide the economic
and price data on which the study is predicated.

In addition, the study did not identify whether it was conducted by State-licensed
appraisers and was not qualified as an appraisal of specific mineral commodities
for specific locations. Moreover, the report contradicts itself by using both terms:
“study” and “appraisal.” Lastly, BLM’s statement of work listed several types of
rocks, in addition to decorative rock, and requested valuations for each type. The
study, however, provided only one category of rock—“Decorative Rock
(Landscape)”—rather than information on the individual types as requested in the
statement of work.

New Mexico
We visited the Rio Puerco Field Office (Albuquerque District) and Carlsbad Field
Office (Pecos District) and reviewed the appraisals performed for these two
offices. In 2009 and 2011, appraisals that were performed by State Office
geologists for mineral materials commodities sales were approved for use. We
found that the authors did not perform field examinations to determine the quality
and quantity of the commodity deposits. The geologists failed to account for
important, site-specific market value considerations, including specific
commodity value differences like its quality and the transportation costs for
getting commodities to market. The report does not provide any real indication of
market value or appraised value for any of the commodities studied. In addition,
staff at one field office noted that the appraisal did not include scoria, even though
it is an important commodity in that district.

Regarding unique deficiencies, the author of the Albuquerque District report
stated that she performed the appraisal in conformity with USPAP standards. We
found, however, that the report contained enough deficiencies and omitted
standards to conclude that it did not conform to USPAP. One of these deficiencies
involved a USPAP requirement that the report contain a signed certification that is
similar in content to a list of nine detailed and specific statements. The author
used only two similar statements, included a third statement that missed a key
clause, and did not include six other statements. Such a certification deviates
enough from the one found in USPAP that it seems to be a likely violation of the
requirement that the certification be similar to the standard.

The author of the Pecos District appraisal stated that the report was an appraisal
but did not identify any other standards he used to perform it. Moreover, the
report stated prices for some of the materials and price ranges for other materials,
but the selection of the market value from a list of prices for each category of
material was not supported. No qualitative or quantitative adjustments were made
to any of the data. The result of this analysis was a conclusion of prices, rather
than an accurate reflection of market value.




                                                                                   25
Nevada
The State office received a mineral materials price study in 2002 from a contract
appraiser. The Winnemucca district office currently uses this study to value
mineral materials. We found that some of the data used in this study dated back to
the “1995 U.S. Bureau of Mines Analysis of Comparable Royalty Rates of
Mineral Materials.” Moreover, some of the sites from the 1995 analysis were
described as now inactive operations in the 2002 report. The credibility of the
2002 report can reasonably be questioned by relying on at least some data from
now inactive operations. In addition, the report is labeled as a price study on the
title page and as both a price study and an appraisal in the body of the report,
which is inconsistent and potentially misleading to the user.

The State office obligated $96,000 for an appraisal in 2007 to obtain fair market
value for eight mineral materials. When the contractor delivered the final report,
however, BLM determined the appraisal did not provide fair market value for the
specified mineral materials, so BLM denied the outstanding balance due of about
$56,000. The contractor appealed to the agency board of contract appeals, and the
two parties agreed that BLM failed to provide the contractor with adequate
performance objectives in the statement of work. Thus, a poorly worded statement
of work resulted in unusable values for BLM. The appeal was settled when BLM
paid $35,000 of the $56,000 remaining balance.

We found additional problems in local Nevada BLM offices regarding mineral
materials values. At one field office, staff charged the prices for sand and gravel
listed on a form that stated the values became effective on April 1, 2005. Staff
stated that they were told the prices were based on an appraisal conducted in
2003, but they did not have a copy of the appraisal and no one there had ever read
it. The values for sand and gravel had not been updated since the effective date in
2005. Staff in another field office stated that they use a price that has been used in
the past for similar materials in a similar area (or same pit) and use the Bureau of
Labor and Statistics website to determine what the increase should be depending
on when the last sale was completed. They do not rely on values established
through a formal valuation process.




                                                                                   26
Appendix 4: Schedule of Monetary
Impact
                   Issue                  Monetary Impact
Potential lost revenue from lack of
contract price adjustment utilizing the       $846,117
Producer Price Index.




                                                            27
Appendix 5: Bureau of Land
Management Response
The Bureau of Land Management’s response follows on page 29.




                                                               28
                   United States Department of the Interior
                               BUREAU OF LAND MANAGEMENT
                                    Washington, DC 20240
                                     http://www.blm.gov




In Reply Refer To :                    FEB 10 201~
1245/3600 (320/830)


Memorandum

To:            Assistant Inspector General for Audits, Inspections, and Evaluations

Through:       Ned Farquhar        rJ~    h:t j~
               :::u:o:~s~rernry            -Lcerrus Management
From:
               Principal Dep~ ~ .

Subject:       Office of the Inspector General Draft Audit Report, Department of the Interior's
               Mineral Materials Program (C-IN-BLM-0002-2012)

Thank you for the opportunity to review and comment on the Office oflnspector General (OIG)
draft report, titled "Department of the Interior's Mineral Materials Program" (C-IN-BLM-0002-
2012).

The Bureau of Land Management (BLM) appreciates the continued interest ofthe OIG in the
administration of the Federal mineral materials program. The BLM generally agrees with the
findings and concurs with the recommendations.

The mineral materials program has historically had limited funding and resources to address the
expanding magnitude and scope of workloads. As a result, the BLM' s capacity to absorb further
workloads is limited. The situation was exacerbated in the 1990's and 2000' s as demand for
materials and technical requirements increased at the same time that staffing and funding
resources contracted.

Over the past year, the BLM has been working to address some of the issues noted in the draft
report such as providing more effective guidance and oversight. In addition, the BLM is
developing a new online mineral materials production verification training program for mineral
materials specialists, expected to be available in Fiscal Year (FY) 2014. Furthermore, the initial
amendments to the Mineral Materials Disposal Handbook (H-3600-1) are in the final stage of
processing for issuance. The amendments will include (1) templates for surety and personal
bonds; (2) instructions for certification of scales; (3) additional guidance on free use permits for
BLM operations; (4) instructions for reporting reclamation acreage; and (5) a listing of
prohibited BLM transactions. The BLM plans to issue additional guidance covering issues such


                                                                                                  29
                                                                                          2


as reclamation fees and production verification during FY 2014. We believe these ongoing
efforts, combined with the implementation of the recommendations made in this report will help
to improve the management of BLM ' s mineral materials program.

In addition to addressing each of the recommendations, the BLM has provided general and
technical comments based on its review of the contents of the report. Attachment 1 provides
general comments. Attachment 2 provides technical comments and recommended edits to the
report. Attachment 3 provides specific responses to each of the recommendations, including a
summary of the actions taken or planned by the BLM to implement the recommendation as well
as the name of the responsible official and the target dates of implementation.

If you have any questions about this response, please contact Mitchell Leverette, Chief, Division
of Solid Minerals Management, at 202-912-7113 , or LaVanna Stevenson, BLM Audit Liaison
Officer, at 202-912-7077.

Attachments




                                                                                               30
                                                                                    Attachment 1

General Comments:

The following comments contain additional information that the BLM produced after having an
opportunity to review a draft copy ofthe report. The OIG may use this information to further
enhance the quality of the report. These comments are not meant to identify specific errors or
recommend specific edits.

The Bureau of Land Management (BLM) suggests that the following information regarding the
breadth of activities the BLM undertakes in carrying out its responsibilities of the mineral
materials program be included in the Background section on page two of the report:

The BLM's Mineral Materials Program is responsible for:
   • Processing exploration permits and mining authorizations.
   • Performing NEP A analyses of disposal applications.
   • Performing commodity valuations to determine the value of disposals.
   • Issuing sales contracts for disposals to private entities.
   • Administering existing contracts and collecting revenue.
   • Processing permits for free use of mineral materials by State and local governments and
      non-profit organizations.
   • Inspecting authorized sites for compliance with contract and permit requirements.
   • Inspecting and enforcing contracts and permits to verify the accuracy of payments and
      reported production.
   • Taking enforcement actions to ensure compliance with terms and conditions of contracts
      and authorizations.
   • Investigating and taking enforcement actions on unauthorized removal of mineral
      materials from Federal mineral estate.

The draft report discusses Federal mineral materials regulations and policies, recovery of
processing costs, verification of production volumes reported for sales, and collecting fees for
minerals used on land that have been sold under the authority of the Southern Nevada Public
Land Management Act of 1998.

Limited Assurance that BLM Obtain Market Value for Mineral Materials

OIG's first and second findings on page 4 state that "Bureauwide appraisal guidance is more
than 25 years old", and "regulatory language requires use of appraisals, even though other
acceptable valuation methodologies exist."

The BLM guidance for valuations of mineral material commodities is indeed older, but the
finding itself without any context suggests that the procedures and methodologies contained in
the guidance are outdated and no longer appropriate. Please note that the guidance has been
reviewed several times and the basic concepts are still relevant to commodity valuations. The
guidance was originally developed as an alternative valuation methodology, patterned after real
property appraisals, due to the general absence of formal guidance for commodity valuations.

                                                                                                   31
Although some terminology used for valuations of mineral material commodities is similar to
terminology used in real estate valuations, the mineral material commodity terms are redefined in
the Mineral Materials Appraisal Handbook to identify distinctions from realty appraisals. Due to
the continued relevance of the BLM's guidance, we do not believe the age of the guidance is an
issue; however, we will provide instructions to the BLM field offices to ensure they adhere to
and properly cite the BLM guidance instead of other procedures.

Advancements and legal changes in the requirements for performing real property appraisals
warrant revisions to the terminology and guidance for the valuations of mineral materials
commodities to ensure that BLM personnel and contractors do not confuse these two different
types of analyses. The Materials Act of 194 7 originally required valuation of materials by
appraisal, but subsequent amendments in 1980 removed that requirement. Until1 980, section
2(b) of the Act required BLM to provide Congress with semiannual reports summarizing the
details of BLM contracts for the disposal of mineral materials and including in the report the
"appraised value of the material involved" under each contract. See Pub. L. No. 87-689, 76
Stat. 587 (1962). The Congressional Reports Elimination Act of 1980 repealed section 2(b),
thereby removing the only reference to appraisals in the Materials Act. See Pub. L. No. 96-470,
§ 102,94 Stat. 2237 (1980). The change removing the appraisal requirement ofthe Materials
Act was apparently not identified when BLM developed regulations requiring valuations by
"appraisal." However, in order to determine "adequate compensation" for mineral materials
commodities, the BLM developed alternative valuation methodologies that emulated real estate
appraisal methods.

The professional context and usage of "appraisal" has evolved to more specific applications for
real property since 1986. Although the word "appraisal" remains in the 43 CFR § 3602.13
regulations, the regulations have always involved commodity valuations for mineral materials
disposals, and not valuations of the mineral estate of a tract. The BLM will consult with the
Office ofValuation Services (OVS) and the Solicitor's Office to identify an appropriate
resolution for this situation. In addition, although the OIG and OVS acknowledge that a real
property appraisal is not required for mineral material commodity valuations, neither office has
provided information as to what other alternative methodologies they consider to be acceptable.

OVS Assistance

The BLM agrees with the OIG's multiple recommendations to work with OVS to explore
potential improvements to BLM' s procedures and guidance relating to valuations of mineral
materials commodities. The BLM plans to discuss with OVS how it might be able to assist the
BLM in the revisions to manuals and handbooks, and how OVS can assist with developing
statements of work and review of select mineral materials commodity valuation reports
completed by the BLM and contractors. The BLM recognizes that OVS may be able to offer
their assistance to the BLM.

Revenues May Be Lost Due to Unauthorized Use

On page 12, the OIG reported that the "BLM did not collect fees for millions of tons of
mineral materials used on land that it sold to a private developer under the authority of


                                                                                               32
the Southern Nevada Public Land Management Act of 1998 (SNPLMA), Pub. L. No.
105-263, 112 Stat. 2343 . The BLM estimated the value of fees not paid for these
materials exceeded $1 million."

The Del Webb/Anthem development identified by the OIG was an isolated incident that involved
a completed development on a tract that was transferred through the authority of the SNPLMA.
The BLM Las Vegas Office was unable to identify records that could corroborate the OIG's
statement about the quantity and value of the unauthorized removal of mineral materials for the
Del Webb/Anthem housing development. Although this incident involved a large residential
construction development with substantial reconfiguration of mineral materials, the
BLM cannot retroactively identify documentation that would support an enforcement action.
However, the BLM Las Vegas Office recently identified two potential unauthorized mineral
materials removals from other SNPLMA tracts and initiated enforcement actions in 2013.




                                                                                             33
                                                                                    Attachment 2

Technical Comments

Page 2, last paragraph. The paragraph intermixes time periods, and omits the word "currently"
when describing the Materials Act of 194 7. The last clause of the first sentence should state "the
Act currently_requires payment of 'adequate compensation'." When the BLM issued the Bureau-
wide appraisal guidance in the mid-1980's, the Act and the regulations required determining the
market value of mineral materials commodities through appraisal. At that time, there was no
clear guidance for performing appraisals or how to determine adequate compensation for mineral
materials commodities, so the BLM developed alternative methodologies to perform
commodities valuations, patterned after real property appraisals. Commodity valuation report
formats that BLM developed emulated the 1973 format from the Uniform Appraisal Standards
for Federal Land Acquisition (UASFLA), and adopted its definition of market value. The
BLM also referenced some appraisal terminology from the UASFLA but revised the definitions
to describe commodities instead of real estate (such as a definition of the highest and best use of
the commodity, rather than of the site). As a result, the BLM guidance and real property
appraisals use some of the same words but the meanings are different.

Page 3, last two paragraphs. The description does not accurately capture the distinction between
cost recovery fees and reclamation fees. The BLM suggests replacing these two paragraphs with
the following:

Generally, both purchasers and permittees are responsible for reclamation of lands disturbed
through exclusive disposals outside of community pits and common use areas. Purchasers, but
not permittees, are responsible for cost recovery fees that are paid in advance. The cost recovery
fees can include the costs of the BLM's administrative review of permit applications, review of
mining and reclamation plans, National Environmental Policy Act (NEP A) reviews, and
appraisal services.

In designated community pits and common use areas, the BLM does not charge cost recovery
fees, but purchasers pay reclamation fees that have a component to recoup, over time, the
original processing costs for site designation and preparation, preparation of BLM mining and
reclamation plans, NEP A reviews, and reclamation-related life-of-mine administration costs.
When an exclusive sale occurs in a community pit or common use area and requires a
supplemental mining and reclamation plan and NEP A, current regulations do not allow the BLM
to charge processing fees in advance so these costs must be recovered incrementally through
reclamation fees over the life of the contracts. Permittees usually perform an equivalent amount
of reclamation work in lieu of a reclamation fee.

Page 5. When the BLM Appraisal Manual and Handbook guidance was developed, amendments
to the Act had removed the requirement for appraisal, but this was not identified then or when
the BLM revised the regulations in 2001, and the wording for the appraisal requirement in the
regulations was not changed. As OIG notes, the appraisal profession and legal requirements for
real property appraisals have diverged substantially from the valuation requirements for mineral
materials commodities. Although the requirements for commodities are different from those for


                                                                                                 34
real estate, the terminology similarities are causing confusion for BLM personnel and
contractors. A guidance update is needed to clearly distinguish the two systems.

Page 5, first full paragraph. The report does not provide additional details regarding what other
acceptable valuation methodologies exist. The BLM recommends that the OIG include a
discussion in the report of other methodologies that OIG considers to be acceptable.

Page 5, first two sentences of second full paragraph. The report states that the BLM's Mineral
Material Appraisal Manual and Handbook has not been updated since the mid-1980s.
Regulations for mineral materials sales were amended in 2001 , 2005, and 2008. The associated
guidance for sales of these materials was issued in 2002, followed by supplemental guidance in
2003, 2006, 2007, 2009, and 2010, with more in progress currently. The BLM recommends that
this information be included in this paragraph.

Page 9, first paragraph. The BLM believes that the OIG has misinterpreted the current cost
recovery regulations for exclusive sales located outside of community pits and common use
areas. The cost recovery regulations currently only cover recovery of costs for processing
applications to the point of issuance of the disposal. Thereafter, there is no recovery of costs for
administering the contracts. The BLM recommends deleting the last sentence in the paragraph.

Page 9, second paragraph. The second sentence appears to contain an inaccurate description of a
finding in the sentence " We found, despite the authority to recover costs, none of the 30 exclusive
sales contracts we reviewed included cost recovery associated with administering the contracts."
Current regulations only allow recovery of costs for processing applications to the point of
issuing contracts for applications located outside of community pits, but do not allow for cost
recovery for any disposals located within community pits. The 2005 regulations also do not
allow recovery of the costs of administering authorized contracts at any location after processing
ofthe application is completed and the sale is authorized. IfOIG 's finding pertained to
applications, not to contracts, the finding should be rephrased to state that "We found that none
of the 30 exclusive sale contracts we reviewed included cost recovery associated with processing
the purchase applications." We also recommend stating how many of the 30 contracts involved
disposals from within community pits.

Page 12. "BLM did not collect fees for millions of tons of mineral material used on land that it
sold to a private developer under the authority of the Southern Nevada Public Land Management
Act of 1988 (SNPLMA) . The BLM cannot substantiate the amount of mineral materials were
used. This situation involved an isolated incident that apparently involved misunderstanding of a
mineral reservation soon after SNPLMA was enacted. This resulted in BLM not investigating
and documenting the extent of use of reserved minerals by the surface owner in developing a
tract. A more accurate wording for the bullet would be "BLM did not investigate a potentially
unauthorized use of mineral materials or consult the Office of the Solicitor for a legal
interpretation of a mineral reservation."

Pages 6, the first full paragraph discusses deficiencies in mineral materials appraisals performed
in four States where the OIG conducted site visits. The paragraph goes on to reference Appendix
1 (page 16 to 18 of the report), which elaborates on the deficiencies in the valuations performed


                                                                                                    35
in those four States - Wyoming, Arizona, New Mexico and Nevada. Please note that the
valuations discussed in these sections did not conform to BLM guidance. We recommend
inserting a statement at the end of the first full paragraph on page 6 that says "During the
preparation of this report, the BLM notified the 0/G that in addition to what was identified by
the investigators, the procedures and standards used to perform the app raisals were not in
compliance with BLM guidance."




                                                                                                  36
                                                                                Attachment 3

 Response to the Recommendations included in the Office of the Inspector General Report
               Bureau of Land Management's Mineral Materials Program
                               (C-IN-BLM-0002-2012)

Recommendation 1: Modify 43 C.F.R. § 3602.13 to allow for the use of all appropriate
valuation methodologies.

Response: The BLM will review alternative valuation methodologies, and initiate the regulatory
process if that is found appropriate.

Target Date: December 31, 2016 (Date for initiation ofthe rulemaking process, if it is
determined a rule
            is necessary)
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 2: Work with Office of Valuation Services (OVS) to update the Bureau's
Mineral Material Appraisal Manual3630 and H-3630-1 Mineral Material Appraisal Handbook.

Response: The BLM will consult with OVS as it updates the Mineral Appraisal Manual and
Handbook.

Target Date: December 31, 2015
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 3: Issue guidance to State offices to coordinate with OVS for contracting of
mineral materials valuations.

Response: The BLM will coordinate with OVS to identify a revised contracting process for
mineral materials valuations.

Target Date: December 31,2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 4: Work with OVS to develop statements of work for preparing mineral
materials valuations.

Response: The BLM will work with OVS to develop standardized statements of work for
contracts for performing mineral materials valuations.

Target Date: December 31 , 2014



                                                                                              37
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 5: Develop a process for OVS to review mineral materials valuations
performed by or for BLM.

Response: The BLM will work with OVS to develop a process that includes the appropriate
OVS reviews for the various types of mineral material valuations.

Target Date: December 31,2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 6: Work with OVS to determine the market values of the mineral materials
covered by the appraisal reports that have been "disapproved for use" .

Response: BLM will consult with OVS to determine a process for their assistance in
determining the market values in this situation.

Target Date: June 30, 2015
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 7: Develop a mechanism for which BLM will reimburse OVS for mineral
materials valuation services as needed.

Response: The BLM will work with OVS to determine how OVS could be reimbursed for work
on these services.

Target Date: December 31,2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 8: Ensure that field offices adjust prices in existing mineral materials
contracts as authorized by Federal regulations and required by BLM policy.

Response: The BLM will issue additional guidance to supplement its H-3600-1 Mineral
Material Disposal Handbook reiterating the mineral materials price adjustment guidance
requirement for existing contracts. Additionally, the BLM will complete periodic reviews on
this issue to monitor for compliance.

Target Date: December, 2014 for additional guidance.
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 9: Develop annual rankings of contracts that need to be valued and revalued.


                                                                                              38
Response: The BLM will review existing ranking policy in the H-3600-1 Mineral Material
Disposal Handbook and will clarify and update the policy as necessary.

Target Date: December 31,2014.
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 10: Reissue guidance explaining which costs are recoverable for exclusive
sale contracts and ensure that field offices seek reimbursement for costs incurred.

Response: The BLM has recently identified some possible improvements to the current
approaches for recovering costs and will revise its guidance for determining which costs are
recoverable and how to collect the costs.

Target Date: June 30, 2015.
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 11: Work with the Office of the Solicitor to revise 43 C.F.R. § 3602.11 to
collect cost recovery fees on existing exclusive-sale contracts in community pits and common-
use areas.

Response: BLM will work with the Office of the Solicitor to determine if a regulatory revision is
necessary or if other administrative options are available to meet this need.
Target Date: December 31, 2016 to initiate a regulatory process, if found appropriate.
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 12: Reissue policy and guidance on production verification to provide
accurate accounting of materials removed, and implement procedures to provide reasonable
assurance that field offices comply.

Response: The BLM will issue new guidance for production verification. Additionally, the
BLM will periodically monitor for compliance.

Target Date: December 31, 2014 for issuance of new guidance.
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 13: Issue guidance to clarify regulations in 43 C.F.R. § 3601.71 to define
"personal use" versus commercial use, in terms of the property on which those uses are restricted
and what specific uses constitute allowable personal use in contrast with restricted commercial
use.




                                                                                                39
Response: The BLM will issue supplemental guidance to define personal use of mineral
materials under 43 C.F.R. § 3601.71.

Target Date: December 30, 2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 14: Issue guidance to its State offices to identify and take action to collect the
fair market value of the unauthorized removal of mineral materials on split-estate land disposals.

Response: The BLM will issue supplemental guidance reiterating the requirement to follow
existing procedures for recovery of damages for unauthorized removal of mineral materials from
split-estate lands.

Target Date: December 31,2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management

Recommendation 15: Consult with the Office ofthe Solicitor regarding this and similar land
disposals to determine whether action should be taken to collect the fair market value of the
unauthorized removal of mineral materials on past land disposals.

Response: The BLM will consult with the SOL regarding whether actions can be taken to
address the land disposal described in this report and similar land disposals.

Target Date: June 30, 2014
Responsible Official: Michael D. Nedd, Assistant Director, Energy, Minerals and Realty
Management




                                                                                                 40
Appendix 6: Status of
Recommendations
The Bureau of Land Management (BLM) concurred with all but 1 of our 15
recommendations.

    Recommendations                  Status              Action Required
                                                        We will refer these
                                                    recommendations to the
       1 through 8 and          Resolved but not     Assistant Secretary for
        10 through 15            implemented.        Policy, Management and
                                                              Budget for
                                                    implementation tracking
                                                          Based on BLM’s
                                                      response, we modified
                                                       our recommendation.
                                                       We request that BLM
                                                           reconsider the
                                                       recommendation and
                                                    respond to us, in writing,
              9                   Unresolved.           within 30 days with
                                                      information on actions
                                                        taken or planned to
                                                             address the
                                                    recommendation, as well
                                                    as target dates and titles
                                                       of officials responsible
                                                        for implementation.




                                                                            41
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
